              Evaluation of the Department of Defense
                       Forensic Laboratories
Report Number 9850008X                             September 16, 1998


                Office of the Inspector General
                    Department of Defense
      Additional Copies

      ‘o obtain additional copies of this evaluation report, contact the Secondary
      :eports Distribution Unit of the Analysis, Planning, and Technical Support
      directorate, at (703) 6048937 (DSN 664-8937) or FAX (703) 604-8932.


       Suggestions for Future Evaluations

     -I‘o suggest ideas for or to request future evaluations, contact the Planning and
     CJoordination Branch of the Analysis, Planning, and Technical Support Directorate
     at (703) 6048939 (DSN 664-8939) or FAX (703) 604-8932.          Ideas and requests
     C an also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884



     1defense   Hotline

     -I-0 report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
     4.24-9098; by sending an electronic message to Hotline@DODTG.OSD.MIL; or by
     Vvriting the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
     ildentity of each writer and caller is fully protected.



Acronyms

AFOST                 Air Force Office of Special Investigations
ASCLD                 American Society of Crime Laboratory Directors
DC10                  Defense Criminal Investigative Organization
DCIS                  Defense Criminal Investigative Service
FBI                   Federal Bureau of Investigation
FSLIEP                Forensic Science Laboratory Investigative Equipment Panel
NCIS                  Naval Criminal Investigative Service
NCISRFL               Naval Criminal Investigative Service Regional Forensic Laboratory
TSWG                  Tri-Service Working Group
USACIDC               U.S. Army Criminal Investigation Command
USACIL                U.S. Army Criminal Investigation Laboratory
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202


                                                                     September 16, 1998


MEMORANDUM FOR GENERAL COUNSEL OF THE DEPARTMENT OF
                  DEFENSE
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
                ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on the Evaluation of the Department of Defense Forensic
         Laboratories (Report No. 9850008X)


        We are providing this evaluation report for review and comment. The evaluation
was performed in response to a recommendation in the “Report of the Advisory Board on
the Investigative Capability of the Department of Defense,” January 1995. We considered
management comments on a draft of this report in preparing the final report.
       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Army responses to Recommendations A. 1 and A.2 were not responsive. The Navy
response to A. 1 was not responsive. We request the Army provide additional comments
on Recommendation A. 1 and A.2, and the Navy to Recommendation A. 1. The Air Force
General Counsel generally nonconcurred with Finding B. The General Counsel,
Department of Defense, Army General Counsel and Navy General Counsel did not
comment on a draft of this report. Therefore, we request comments to the final report by
the General Counsel, Department of Defense; Army General Counsel; Navy General
Counsel; the Army; and the Navy by November 16, 1998.

       We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Dr. Charles McDowell, Evaluation Program Director, at
(703) 604-8769 (DSN 664-8769) or Ms. Phyllis Brown, Evaluation Project Manager, at
(703) 604-8776 (DSN 664-8776). See Appendix B for the report distribution.




                           Deputy Assistant Inspector General
                       Criminal Investigative Policy and Oversight
                         Offke of the Inspector General, DOD

Project No. 9850008X                                                    September 16,1998



                    Evaluation of the Department of Defense
                             Forensic Laboratories

                                  Executive Summary

Introduction. This evaluation was performed in response to a recommendation contained
in the “Report of the Advisory Board on the Investigative Capability of the Department of
Defense,” January 1995, issued by the Secretary of Defense. Recommendation No. 88 of
the study proposed that the Secretary’s Board on Investigations determine whether
consolidating all DOD forensic support under one integrated laboratory system would
result in additional cost efficiencies and enhanced customer support. The evaluation was
identified as a project in the Office of the Inspector General Fiscal Year 1997 Annual Plan
and was announced April 8, 1997. The on-site evaluation was conducted from July
through September 1997. The Army consolidated its forensic laboratories in 1993 and
 1996, and the Navy consolidated its laboratories in 1992, resulting in the present
arrangement of one Army and two Navy laboratories.

Evaluation Objective. The primary objective was to evaluate whether consolidating
forensic laboratories under one integrated system would result in cost efficiencies and
enhanced customer support. The evaluation also focused on the efficiency and
effectiveness of the DOD forensic laboratories’ policies and procedures in support of the
criminal investigative mission and on the adequacy of resources needed to perform the
forensic laboratory mission.

Evaluation Results. The DOD forensic laboratories, as currently structured, are meeting
their mission of providing responsive forensic services to the Defense Criminal
Investigative Organizations. The laboratories have demonstrated their effective
capabilities to provide forensic services through accreditation by the American Society of
Crime Laboratory Directors and highly favorable reports from their customer base.
Because we found no deficiencies in the forensic support provided, further consolidation
at this time cannot be justified based on the potential for more effective forensic laboratory
support to the Defense Criminal Investigative Organizations. However, improvement in
laboratory operations are warranted which will allow the accurate assessment of the cost
efficiency of services provided. Also, the practice of receiving and providing certain non-
Federal laboratory services without reimbursement could potentially violate fiscal statutes
and regulatory guidance.
        o The DOD laboratories do not perform cost accounting to determine the cost of
forensic examinations for comparison purposes with other crime laboratories. Further, the
laboratories lack a uniform method for collecting workload data. As a result, the
laboratories are unable to assess the cost-effectiveness of operations in comparison with
other crime laboratories (Finding A).

         o The Defense Criminal Investigative Organizations request and receive forensic
services from non-Federal agencies at no charge in cases in which the non-Federal agency
has no interest. In addition, the Navy forensic laboratories provide forensic support to
non-Federal law enforcement agencies on a no-fee basis in cases in which the Navy has no
interest. These procedures by the Defense Criminal Investigative Organizations could
result in violation of fiscal statutes including the Anti-Deficiency Act and DOD directives
(Finding B).

Recommendations in this report, if implemented, will improve the overall management of
the DOD forensic laboratories.

Summary of Recommendations. We recommend that the Director, U.S. Army Criminal
Investigation Laboratory, and the Directors, Naval Criminal Investigative Service
Regional Forensic Laboratories, initiate cost accounting of their examinations and
establish standard measurements to generate valid and reliable workload statistics. We
also recommend that the General Counsel, Department of Defense, and the Service
General Counsels review the Defense Criminal Investigative Organizations’ policies and
procedures for requesting and providing forensic laboratory services to ensure compliance
with statutory and regulatory requirements.

Management Comments. The Army and Navy nonconcurred with the recommendation
to establish a cost accounting system for their examinations. The Army stated that the
unit cost analysis is outside current capabilities of DoD and the Army laboratory. The
Navy stated that NCIS does not want to divert laboratory dollars and manpower to do a
unit cost analysis study. The Navy concurred with the recommendation to establish
standard measurements to accurately define and report forensic workload statistics. The
Army nonconcurred with the recommendation stating the DOD laboratories, including
Army, do not have a common denominator for comparing units of work.

The Air Force General Counsel generally disagreed with the Finding B which concludes
that certain Defense Criminial Investigative Organization practices for providing or
reviewing laboratory services from non-Federal agencies could lead to Anti-Deficiency
Act violations. The Air Force General Counsel finds no violation of the 3 1 U.S.C. s 1342
provision of the Act which prohibits accepting voluntary services or a violation of any
other federal fiscal statute. However, the Air Force General Counsel offered a
recommendation that services provided by State and local forensic laboratories be
obtained by a written agreement that provides that services rendered are gratuitous with
no expectation of future payment. None of the comments address Defense Criminal
Investigative Organizations compliance with regulations. We note that our
recommendation regarding Finding B is precisely that the Service General Counsels

                                                 ii
review laboratory procedures to ensure compliance with regulations. The General
Counsel, Department of Defense, Army General Counsel, and the Navy General Counsel
did not comment on a draft of this report issued March 11, 1998. See Part I for a
discussion of management comments and Part III for the complete text of the management
comments.

Evaluation Response. The Army and Navy comments were not fully responsive. We
disagree with the Army and Navy’s assessment of cost accounting systems for the
laboratories. In addition, we believe the Army should reassess the need to establish
standard measurements to define and report forensic workload statistics. We request the
Army and Navy provide comments on the final report as indicated in Part I. The Air
Force General Counsel’s recommendation is responsive. However, prior to implementing
this procedure for DOD laboratories, we need to review and assess responses to the final
report. We request that the General Counsel, Department of Defense, the Army General
Counsel, and the Navy General Counsel provide comments on the final report by
November 16, 1998.




                                               ...
                                               111
